<html>
<title> - THE PARIS ATTACKS: A STRATEGIC SHIFT BY ISIS?</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                          THE PARIS ATTACKS: 
                       A STRATEGIC SHIFT BY ISIS?

=======================================================================

                                HEARING

                               BEFORE THE

         SUBCOMMITTEE ON TERRORISM, NONPROLIFERATION, AND TRADE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 2, 2015

                               __________

                           Serial No. 114-122

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 __________
                                 
                                 
                           U.S. GOVERNMENT PUBLISHING OFFICE
97-752PDF                         WASHINGTON : 2015                           
                                 
_______________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b2d5c2ddf2d1c7c1c6dad7dec29cd1dddf9c">[email&#160;protected]</a>  
                                
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York<greek-l>
TOM EMMER, MinnesotaUntil 5/18/
    15 deg.
DANIEL DONOVAN, New York<greek-l>As 
    of 5/19/15 deg.

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

         Subcommittee on Terrorism, Nonproliferation, and Trade

                        TED POE, Texas, Chairman
JOE WILSON, South Carolina           WILLIAM KEATING, Massachusetts
DARRELL E. ISSA, California          BRAD SHERMAN, California
PAUL COOK, California                BRIAN HIGGINS, New York
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
REID J. RIBBLE, Wisconsin            ROBIN L. KELLY, Illinois
LEE M. ZELDIN, New York
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Max Boot, Jeane J. Kirkpatrick senior fellow for national 
  security studies, Council on Foreign Relations.................     5
Daveed Gartenstein-Ross, Ph.D., senior fellow, Foundation for 
  Defense of Democracies.........................................    13
Mr. Michael Weiss, co-author, ``ISIS: Inside the Army of Terror''    29
Mr. Thomas M. Sanderson, director and senior fellow, 
  Transnational Threats Project, Center for Strategic and 
  International Studies..........................................    44

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Max Boot: Prepared statement.................................     8
Daveed Gartenstein-Ross, Ph.D.: Prepared statement...............    15
Mr. Michael Weiss: Prepared statement............................    33
Mr. Thomas M. Sanderson: Prepared statement......................    47

                                APPENDIX

Hearing notice...................................................    78
Hearing minutes..................................................    79

 
                          THE PARIS ATTACKS: 
                       A STRATEGIC SHIFT BY ISIS?

                              ----------                              


                      WEDNESDAY, DECEMBER 2, 2015

                     House of Representatives,    

        Subcommittee on Terrorism, Nonproliferation, and Trade,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 1:05 p.m., in 
room 2200, Rayburn House Office Building, Hon. Ted Poe 
(chairman of the subcommittee) presiding.
    Mr. Poe. The subcommittee will come to order. Without 
objection, all members will have 5 days to submit statements, 
questions, and extraneous materials for the record, subject to 
the length limitation in the rules.
    I will give my opening statement, then I will yield to the 
ranking member, Mr. Keating from Massachusetts, for his 
statement.
    At least 130 people were killed and hundreds more were 
wounded on November the 13th in Paris as a result of the 
terrorist rampage by ISIS. My condolences go out to all of 
those who lost their loved ones, their family and their friends 
on that day.
    The shocking attack came in the context of a growing 
international aggression on the part of ISIS. Just the day 
before the Paris attacks, ISIS claimed credit for a twin 
suicide bombing in Beirut that killed at least 42 people. Two 
weeks before that, ISIS claimed to have downed a Russian 
airliner over the Sinai Peninsula, killing all 224 people 
onboard. ISIS has claimed the lives of more than 800 people 
this year outside its so-called caliphate.
    While the world has witnessed the strengthening of ISIS, 
the President had a different interpretation. On the same day, 
before the Paris attacks, the President said that ISIS was 
``contained'' in Iraq and Syria.<greek-l>'' deg. They may not 
be expanding their caliphate, but ISIS does not look contained 
to me.
    American and European intelligence officials are now saying 
that ISIS has dedicated cell planning more terrorist attacks 
overseas. It is becoming clear that ISIS is not just a regional 
threat in the Middle East and that its overseas campaign of 
terror may have only just begun.
    It has been over a year since the President promised to 
``degrade and ultimately destroy'' ISIS. U.S. air strikes have 
done little to reduce the number of ISIS fighters. Foreign 
fighters are being replenished each day. There simply have not 
been enough air strikes targeting vital ISIS locations.
    Right after the Paris attacks, the French, God bless them, 
didn't take them long to start hitting ISIS' strategic 
locations in Syria guided by the U.S. Two weeks ago, we finally 
started to bomb trucks transporting oil for ISIS. It did not 
seem to happen earlier. The question is why.
    ISIS made $100 million through oil trafficking in 2014. I 
am curious why there has only been one air strike on the 
group's oil operations since November.
    And why don't we go after the oil fields that produced that 
oil that is being sold on the black market? According to the 
former CIA Director, there were environmental concerns about 
blowing up oil fields. So now we are fighting an 
environmentally correct war and trying to defeat ISIS. No 
wonder there is no success.
    The President himself was forced to cancel the train and 
equip program that cost $\1/2\ billion after several false 
starts. Apparently, we need a strategy. We are failing in our 
efforts to counter foreign fighter travel. The majority of the 
Paris attackers were EU citizens who had traveled back and 
forth from fighting in Syria. The U.S. still does not have a 
national strategy to combat fighter travel.
    We also have yet to devise a real strategy to combat 
terrorist use of social media. ISIS uses social media to 
advertise its propaganda, radicalize and recruit people all 
over the world. Right after the Paris attacks, ISIS supporters 
took to social media to praise the terrorists. How revolting is 
that? ISIS has released videos praising the attacks and calling 
for now attacks in New York and Washington, DC.
    The administration has promised a strategy to counter 
online radicalization. That was in 2011. Four years later, we 
are still waiting on the strategy.
    Not only that, we need to find better ways to deprive ISIS 
of their money. Their reign of terror is a result of having 
money to kill folks. Last year alone, ISIS made over $1 
billion. They get money from ransom, killing endangered species 
in Africa, big dollar donors in the Middle East, taxing of 
locals that they control, and of course blood oil.
    We need to start implementing a winning strategy against 
ISIS. Are we waiting to take the gloves off until ISIS commits 
a crime in the United States? It appears to me that we are on 
the defense, not the offense, when it comes to eliminating 
ISIS.
    The first step toward a better strategy is acknowledging 
the one that we have now is really not enough. So we must be 
honest with ourselves, and we must do everything possible.
    The bottom line is, it is our obligation to protect the 
American people. Continuing to believe in a policy that doesn't 
fit the bill will continue to endanger us all. So what is the 
plan? What is the road to defeating ISIS?
    And I will now yield to the ranking member for his opening 
comments.
    Mr. Keating. Well, thank you, Mr. Chairman, and thank you 
for holding this hearing. I would like to thank our witnesses 
for being here.
    As we conduct today's hearing it is important to keep in 
our minds first and foremost the victims and their families of 
these attacks in all the countries. I am the cochair of the 
French Caucus in the House. Just a few months ago, I was in 
Paris talking to counterterrorism officials and other officials 
who have worked very hard and were very aggressive in trying to 
deal with terrorist issues there, and still it just shows once 
again that these terrible events can occur despite how hard you 
work to prevent them from occurring.
    And the title of the hearing asks whether the attacks in 
Paris represent a strategic shift in Daesh or ISIL. It clearly 
does. I am interested in our witnesses' perspectives on this 
question and hope that we will be able to have an informative 
discussion.
    Whether or not they signal a major strategic shift--I think 
they do--however, the Paris attacks, together with the recent 
bombings in Beirut and the bombing of the Russian Metrojet in 
Egypt demonstrate an escalation of ISIL's or Daesh's terrorist 
activities outside of its bases for power in Iraq and Syria.
    This is a concerning development, to say the least, one 
that has been met with a range of reactions from France and 
Turkey and Russia and the United States. What remains clear is 
that the United States and our international partners must work 
and communicate on all fronts to defeat ISIL.
    ISIL is a unique threat because it is a global terrorist 
organization. Because it is, they have an apocalyptic view. And 
certainly it is a concern because they are translating that 
into significant territory. Its occupation provides substantial 
revenue through theft, extortion, taxation, and attracts 
foreign fighters drawn to the cause and supporting the supposed 
caliphate.
    To defeat ISIL, we need to continue to assist our allies 
militarily to reverse the territorial gains made by ISIL, and 
we are making progress in this area. However, while ISIL 
suffers territorial losses in Iraq and Syria, it may ask to 
increasingly lash out at its enemies outside of the immediate 
region.
    And in the longer term, however, according to its ideology, 
ISIL needs to control its territory to justify its existence. 
And ISIL, without significant territory, would be severely 
weakened.
    But it is important to keep in mind that countering ISIL 
will require much more than military force. For example, we 
must do more to cut off ISIL's supply of money and manpower by 
more effectively countering terrorist recruitment, terrorist 
travel, and terrorist financing. We also need to work to 
counter ISIL's expanding influence beyond Iraq and Syria into 
its so-called provinces of Egypt, Libya, Nigeria, Afghanistan, 
and Pakistan, as well as other locations in Africa and Asia. 
And it is critical that we enhance and share counterterrorism 
intelligence and information with and among our international 
partners, particularly our European allies who are 
geographically closer to the Middle East and have seen greater 
numbers of foreign fighters travel to Iraq and Syria.
    Ultimately, we also need to identify and address the root 
causes of why so many predominantly young adults are prepared 
to kill themselves in support of such a savage and morally 
bankrupt cause.
    I look forward to hearing from our witnesses today about 
this threat post-Paris and how the United States and its 
partners can work together to mitigate and eventually overcome 
this threat.
    I yield back, Mr. Chairman.
    Mr. Poe. I thank the gentleman from Massachusetts.
    I will now introduce the other cochair of the French 
Caucus, the gentleman from South Carolina, Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman. And thank you, Judge 
Poe, for your leadership on what is so important, the attacks 
in Paris.
    And, indeed, this is bipartisan. I am grateful to work with 
Congressman Keating as cochair of the French Caucus. And it is 
personal to me. I am of French heritage and very grateful for 
that. And we appreciate and have great sympathy for America's 
first ally, France.
    The Parisian attacks came just 1 day after the President 
claimed that ISIL was contained, further showing that his 
policy, I believe, to protect American families is a legacy of 
failure.
    What we have, sadly, ISIL, Daesh, is an ability to 
effectively coordinate mass murders of civilians across the 
world. We must never forget 9/11. It is clear that defeating 
ISIL will require a much more coordinated effort comprised of a 
broad coalition of America and its allies in Europe and the 
Middle East. I look forward to the recommendations of the 
distinguished panel here today and the insights on how we might 
counter ISIL's strategy to commit atrocities worldwide.
    Thank you.
    Mr. Poe. The Chair recognizes the gentleman from 
California, Colonel Cook.
    Mr. Cook. Thank you, Mr. Chairman.
    I am going to be very, very brief. I just want to mention a 
hearing that I had this morning. I am also on the House Armed 
Services Committee, and we had an individual by the name of 
David Ignatius. He is actually a reporter for The Washington 
Post. And the subject was about ISIS. We talked about Paris, 
obviously. I thought the focus was going to be primarily on the 
military. But after listening to him, because he was talking 
about the history and the origins and everything else, which 
you really, really need to understand, where ISIS has been and 
where it is going and objectives and some of the things which 
the chair talked about.
    It was an outstanding hearing. And I came away from it that 
I said maybe sometimes we have got to actually have a 
combination, like we did on that hearing that you had last week 
with Homeland Security, and where sometimes in the House Armed 
Services we are only focused on the military and we don't 
understand a lot of the foreign policy implications, the 
history, the religion, et cetera, et cetera, et cetera, 
something that was talked about.
    But, anyway, I recommend that in the future. Maybe if we 
could do this. I was just shocked how at knowledgeable this 
individual was. His father, by the way, was the former 
Secretary of the Navy many years ago, probably when I was 
coming into the Marine Corps as a second lieutenant. As I 
remind everybody, the most dangerous weapon in the world is a 
second lieutenant with a map and a compass.
    But it was a great hearing. And I look forward to the 
witnesses that we have today. The French, now more than ever, 
are one of our strongest allies and we have to make sure we 
stand with them.
    Thank you.
    Mr. Poe. Thank you, Colonel Cook.
    The other gentleman from California Representative, Mr. 
Rohrabacher.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman. Thank 
you for letting me participate.
    Two weeks ago I was in Paris, which was just a matter of 
days after the massacre, and it was an honor for me, along with 
Representative Gabbard, that we were able to place a crossed 
American and French flag there at the sight of the slaughter 
that took place and for us to meet with French officials at a 
very high level to reassure them that Americans stand with 
them.
    We have had a special relationship with the French people 
since their crucial support for American independence during 
our struggle for our own freedom. Such a relationship and the 
supporting relationship as we have had is going to be ever more 
important in the years ahead, because we are entering into a 
new era of history. The Cold War is over. The post-Cold War is 
over. And this era may well be known as the era of Islamic 
terrorism.
    But whatever they call it, we need to be supportive of all 
of those who are attacking and trying to defeat radical Islam, 
and that is especially true of countries like France.
    Thank you.
    Mr. Poe. Does any other member wish to make an opening 
statement?
    If not, I will introduce the witnesses that we have. And 
without objection, all the witnesses' prepared statements will 
be made part of the record.
    I ask that each witness please keep your presentation to no 
more than 5 minutes. I will advise everyone that we are 
supposed to have a series of votes in the next 20 to 30 
minutes, but we will proceed with all of the statements of the 
witnesses first.
    Mr. Max Boot is the Jeane Kirkpatrick senior fellow for 
national security studies at the Council on Foreign Relations. 
He is a military historian and foreign policy analyst, who has 
served as an adviser to the United States commanders in Iraq 
and Afghanistan.
    Dr. Daveed Gartenstein-Ross is a senior fellow at the 
Foundation for Defense of Democracies. His work focuses on al-
Qaeda, the Islamic State, and other jihadist organizations with 
transnational ambitions.
    Mr. Michael Weiss is the co-author of ``ISIS: Inside the 
Army of Terror.'' He also appears on on-air analysis for CNN 
focusing on Syria, Iraq, ISIS, Russia, and Ukraine.
    And Dr. Thomas Sanderson is the director and senior fellow 
for the Transnational Threats Project at the Center for 
Strategic and International Studies. He currently investigates 
violent extremist activity across Africa and the Middle East.
    I want to welcome all four of our experts this afternoon. 
And we will start with Mr. Boot.

 STATEMENT OF MR. MAX BOOT, JEANE J. KIRKPATRICK SENIOR FELLOW 
  FOR NATIONAL SECURITY STUDIES, COUNCIL ON FOREIGN RELATIONS

    Mr. Boot. Thank you very much, Mr. Chairman. It is a 
privilege to be here to talk about such an important subject.
    You know, I don't think that the President is being honest 
about what our strategy against ISIS actually is, because the 
President says we are out to degrade and defeat ISIS. In fact, 
I think what we are really trying to do at the moment is to 
contain it. We don't have a strategy to defeat and to destroy 
ISIS. What we have is barely a strategy to contain it, which 
has not been successful, as we have seen.
    While it is true that the scope of ISIS' territorial 
control in Iraq and Syria has been slightly decreased over the 
course of the last 6 months or so, shrunk slightly at the 
periphery, nevertheless, ISIS remains a potent threat. It 
maintains its hold on Mosul, Raqqa, Ramadi, Palmyra, and a lot 
of other territory. And it is not content to dominate this 
Islamic State, so-called, in Iraq and Syria. It is expanding 
rapidly to places like Libya. And as we have seen, of course, 
in the case of Paris, it is also expanding its terror networks 
abroad so that it can strike literally anywhere in the world.
    I believe that we actually need a strategy to make good on 
what the President said we must do, which is to destroy ISIS. 
And what is that going to take? Well, it is going to take a lot 
more than what we are doing at the moment, even notwithstanding 
the slight escalation announced yesterday by Secretary Carter 
when he said that a joint special operations task force was 
going to join the fight. That is a good step, something I have 
called for, for more than a year, but it is going to be 
insufficient. We need an integrated military and political 
strategy to destroy ISIS.
    And it is not sufficient simply to focus on areas such as 
countering ISIS finance or countering ISIS propaganda online. 
Those are both things that we need to do, but in the end they 
will not be decisive. As long as ISIS controls a state the size 
of the United Kingdom, it will continue to have a potent appeal 
for jihadists around the world.
    The only way to break its appeal is to destroy its hold on 
its territory. And how do we do that? Well, I think what we 
need is more military action on the part of the United States 
and our allies, but we also need a political strategy, and 
those two have to be closely intertwined, something that is not 
the case today.
    In terms of military action, clearly, I think we need a 
more intensive bombing campaign. I mean, it is literally 
incomprehensible to me why 75 percent of U.S. attack sorties 
are coming back to base without dropping their weapons. That 
suggests that we are waging an extraordinarily restrained 
campaign. As Mike Vickers, the former under secretary of 
defense for intelligence, pointed out recently, in 2 months in 
Afghanistan, in the fall of 2001, we have dropped more bombs 
than we have in the case of Iraq and Syria in something like a 
year and a half.
    So clearly, we need to step up the bombing campaign. We 
need to make that bombing campaign more effective by allowing 
our joint tactical air controllers onto the battlefield where 
they can actually call in strikes in an aggressive and precise 
way while avoiding civilian collateral damage.
    We need special operations teams on the battlefield. Again, 
as I mentioned a second ago, the fact that we are putting JSOC 
into the fight, I think, is a good step, but it is 
insufficient. At the end of the day, I don't think that special 
operators alone are going to be enough to win this battle. I 
think we also need to put more conventional forces onto the 
battlefield. And I would estimate something on the order of 
20,000 to 30,000 troops will probably be required, which is 
well beyond the current level of about 3,500, but still well 
short of the 100,000-plus levels that we reached in Iraq at the 
height of the Iraq war.
    I think those troops are necessary in order to galvanize 
and support a Sunni uprising against ISIS in both Iraq and 
Syria. And this is really the way that we are going to defeat 
this organization. We are going to turn its constituency 
against it.
    And what is that going to take? Well, in the first place, 
we have to give the Sunnis some assurance that if they rise up, 
that we will stand with them, that we will fight alongside of 
them, that they will not simply be slaughtered by these 
butchers in ISIS. And to give them any kind of assurance, we 
need to have more troops who can work alongside of them and 
protect them and enable them to be effective against ISIS.
    But we also and crucially need a political strategy. We 
need to assure them that if they get rid of ISIS, they are not 
going to simply replace the tyranny of ISIS with the tyranny of 
Iran. We need to push for Sunni autonomy within Iraq. We need 
to push in Syria for the ouster of Bashar Assad, who has killed 
far more people than ISIS ever has. We need to offer the Sunnis 
a political end state that is worth fighting for. And if we do 
that, and if we provide them with a slightly greater level of 
support, I believe we can be more far successful against ISIS 
than we have been to date.
    [The prepared statement of Mr. Boot follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
          
                              ----------                              

    Mr. Poe. Thank you, Mr. Boot.
    Dr. Gartenstein-Ross, please, sir.

  STATEMENT OF DAVEED GARTENSTEIN-ROSS, PH.D., SENIOR FELLOW, 
             FOUNDATION FOR DEFENSE OF DEMOCRACIES

    Mr. Gartenstein-Ross. Chairman Poe, Ranking Member Keating, 
and distinguished members, it is an honor to be here to testify 
before you at this grave time. Apologies in advance for the 
fact that I am somewhat losing my voice. An infant plague has 
been running around my house, as many of you are familiar with.
    On the specific question that the hearing asks, whether we 
are seeing a strategic shift on ISIS' part, my answer is no. I 
don't think this is the key question in the hearing. But I 
would submit that, in general, when the argument has been that 
a strategic shift is taking place, the presumption is that 
previously ISIS was much more focused in their own box. They 
were much more focus on building the caliphate and less so on 
carrying out attacks externally.
    I would argue that they have been interested from the 
outset in carrying out external attacks. The best comprehensive 
treatment of this is written by two of my colleagues, Nathaniel 
Barr and Bridget Moreng, in Foreign Affairs recently. I have 
cited it in my testimony and actually adapted part of my 
testimony from their piece.
    To quickly go over it, I think the rhetoric of ISIS has 
always suggested they were interested in carrying out attacks 
abroad.
    Secondly, I think lone wolf attacks are very much 
misunderstood. Some of the lone wolf attacks they have 
engendered have indeed just been inspired by ISIS and had no 
connect to the organization. But others have been lone wolf 
attacks of individuals in Western societies who are actually 
taking orders from ISIS centrally. This was the case for 
several attackers in the United States who were inspired and 
directed by Junaid Hussein. This was also the case for a cell 
in Australia.
    Finally, they previously attempted to carry out similar 
urban warfare-style attacks in the West. There is the plot that 
was broken up in Belgium back in January of this year, just 
about a week after the Charlie Hebdo massacre, in which the 
would-be attackers had grenades, small arms, and the kinds of 
things that were used in the Paris attack. Indeed, Abaaoud, one 
of the people who prepared the Paris attack, the ringleader of 
the Paris attack, had been in Belgium. So I think that 
previously they were trying to do this.
    I do think that there are a couple of shifts we are likely 
to see on ISIS' part. One is, as they lose territory in Iraq 
and Syria, they are likely to devote more resources to carrying 
out terrorist attacks abroad. They have a narrative of 
strength. It is very important to them to demonstrate to their 
constituency that they are strong, that they are winning. That 
is one reason why their propaganda has always been so brutal. 
And I think that to show that they are strong, they will devote 
more resources to carrying out terrorist attacks abroad.
    Secondly, I think that ISIS will show more of a focus on 
its near abroad, not just Iraq and Syria, but if you look at 
places like Libya in particular that they have expanded into, 
they clearly--and it was reported recently in a major 
publication--that ISIS is looking to make sure that they have 
continuity, that if they lose enough ground in Iraq and Syria 
that the caliphate is no longer viable there that they may 
shift the locus of their caliphate over to Sirte, a city in 
Libya that they currently control.
    This is a very thorny problem set. Let's make no mistake 
about that. This is difficult because of all the many players 
that you have on the ground.
    So a few things to consider. The first is that I do think 
that defeating ISIS on the battlefield is key. They made a very 
bold move when they declared a caliphate, and in declaring a 
caliphate, they staked their legitimacy upon maintaining 
territory. Territoriality is very important to them. And if 
they no longer have a viable caliphate, that threatens upending 
their legitimacy in a way that other jihadist groups are not 
vulnerable to.
    Secondly, I agree with the note about social media and its 
importance to ISIS. Their narrative of strength is key. I 
testified before the Senate on this issue earlier this year. I 
cite to my Senate testimony in the written testimony you have 
received. But I think that we have not done a good job of 
puncturing this narrative of strength.
    A lot of their so-called gains have often been very 
exaggerated, and in fact they have experienced a number of 
major losses, especially in Africa, over the course of this 
year that are virtually unknown. There is a lot of opportunity 
to puncture this narrative of invulnerability that they have 
set up for themselves.
    Another thing I would like to point to is Sirte. I 
mentioned that, but right now we know that the Islamic State is 
very strong there. We aren't taking any sort of action to 
counter this other base that they have outside of Iraq and 
Syria. I think that we should heavily consider what we should 
do to counter their strength outside of their immediate theater 
and in their near abroad.
    As I said, this is a very thorny problem set. ISIS does 
have vulnerabilities, and significant vulnerabilities, and I 
think part of solving this problem set is not just looking at 
their strengths, but also seeing how we can make their own 
vulnerabilities work against them.
    [The prepared statement of Mr. Gartenstein-Ross follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
                                       ----------                              

    Mr. Poe. Thank you.
    Mr. Weiss, statement, please.

 STATEMENT OF MR. MICHAEL WEISS, CO-AUTHOR, ``ISIS: INSIDE THE 
                        ARMY OF TERROR''

    Mr. Weiss. Thank you, Chairman Poe and Ranking Member 
Keating. It is an honor and pleasure, while slightly depressing 
to be here, given the circumstances of the mass murder in one 
of the world's best and cosmopolitan cities 2 weeks ago.
    Last month I was in Istanbul on assignment, interviewing a 
defector from ISIS. Not just any defector, he had actually 
served in what is called the amn al-dawleh, which is their 
state security apparatus. This is the branch of their 
intelligence wing, which has four main pillars, that Mohammed 
Emwazi, also known as Jihadi John, had served in. They are 
responsible for interrogation and detention. They are also 
responsible for essentially creating a border guard. If you 
leave their territory, you have to pass through checkpoints.
    In some cases, they are responsible for training foreign 
operatives. And the guy that I was interviewing, I gave him the 
pseudonym Abu Khaled, told me--this was in mid-October, or late 
October--that he remembers training two French fighters. And I 
asked him, where did they go, where are they now? He said they 
went back to France.
    After the Paris attacks, I got in touch with him, and he 
said, ``You know, I am more than 50 percent certain, if they 
weren't one of the suicide bombers or one of the gunmen who 
perpetrated the attacks, that they were involved in some way.'' 
He said to me, ``Michael, ISIS has got sleeper cells all over 
the world.'' They have from the very beginning had a foreign 
expeditionary wing and a foreign policy.
    And one of the things that struck me by his relay of what 
it was like in the 11 months he spent in this organization, 
they are a state. They conceive of themselves as a state. I 
know that the United States likes to downplay this and pretend 
that, no, this is just a terrorist organization, it can and 
will be defeated quite easily, but that is not how ISIS 
portrays themselves. And more importantly, as some of the other 
witnesses have said, that is not how the constituents of ISIS, 
Sunni Arabs, particularly in the tribal regions of eastern 
Syria and western-central Iraq see it.
    If you are a member of ISIS, gentlemen, you have free 
health care. And what do I mean by free health care? If you 
could go to the eye doctor, if you have a toothache, that is 
all paid for. If you have cancer, they will send you to Turkey 
so you can get chemotherapy and put you up in a hotel.
    You get a salary that beats the band, particularly in war-
torn Syria. If you have a wife, you get a subsidy for her. Your 
rent is free. If you have children, you get subsidies for each 
child. If you take care of your parents and your in-laws, you 
get subsidies for them as well. It is like joining the 
Communist Party in the decaying days of the Soviet Union. There 
is a nomenklatura, a new class of jihadists.
    And part of this ideological propaganda and exportation is 
what I would call a jihadist internationale. There are main 
planks to this. We have all heard about the messianic, 
apocalyptic vision that they espouse. The end days will come in 
Dabiq, the suburb of Aleppo, where the armies of Rome will meet 
the armies of Islam, and Islam will be victorious.
    But there is also a political project that underwrites 
this. Let's not forget, the people who run this organization 
standing behind Abu Bakr al-Baghdadi, where did they come from? 
A lot of them had served in Saddam Hussein's intelligence 
service, in his military, in the Ba'ath Party. They had 
training from the Soviet KGB and the Stasi. Abu Khaled, the 
ISIS defector, told me, ``Now, ISIS doesn't fight so well on 
the battlefield.'' And he would know, because he trained a lot 
of the infantry soldiers who went like lemmings to their death 
in Kobani. In fact, many of them defected or deserted and said, 
``We don't want any part of this. We just get bombed the minute 
we turn up in a house in that city.''
    I said, ``So how did they manage to take all this 
territory?'' He says, ``They have very good tradecraft.'' They 
are great at spying. They infiltrate rival organizations. If it 
is the Free Syrian Army, they send an agent into a brigade or 
battalion of the FSA equipped with $200,000 to $300,000 cash to 
essentially bribe his way to the top of that organization or 
the top of that military unit, and all of a sudden he starts 
manipulating and finessing the activities of the FSA. Some of 
these groups are backed by the United States and the so-called 
Friends of Syria.
    ISIS takes over territory before the advancing columns of 
tanks and Humvees and shock troops. They have already 
cultivated a constituency. They spend a fortune.
    Most of the money they are making, by the way--you talk a 
lot about oil sales, you talk a lot about smuggling of 
artifacts or human trafficking, that is not it. They have an 
entire bureaucracy that levies fines and taxes and surcharge on 
any violation that they deem to be abuse of their penal code or 
their sharia law.
    If you are caught smoking cigarettes, you have to sit for 3 
days in a cage in the town al-Bab, if you are in al-Bab, and 
Aleppo. You also have to pay a fine. If you flee from ISIS-held 
territory, your house, your property, all of your assets are 
confiscated. They have a very sophisticated repossession and 
eminent domain policy. Okay?
    This is the reason they want to terrain, because with 
terrain comes people. They are ``governing,'' lording it over 
millions of people. And those millions of people are duty bound 
to pay taxes. I don't have to tell you what happens if they 
don't or if they defy ISIS or they try to flee.
    Like any totalitarian political organization, the likes of 
which we have seen in the 20th century, there is a carrot-and-
stick approach. There is a social outreach program: Come to the 
paradise of the caliphate, and you can have your Nutella, you 
can have your video games, you can have your bride, we will 
populate this land with the cubs and pearls of new generations 
who will know only life under the true Islam as it should be 
taught. And then, if you don't, or if you try to stand up or 
resist ISIS, you will be slaughtered.
    You all remember the Al Anbar awakening in the mid-2000 
period in Iraq, which was essentially a pragmatic relationship 
struck between the Sunni tribes and the U.S. military, not 
because the U.S. military was seen as a liberating force, but 
it was seen as a more credible alternative than al-Qaeda in 
Iraq, the head loppers and butchers and rapists and 
monopolists, the gangsters who stole money from these tribes.
    There is no 101st Airborne. There is no 1st Armored 
Division in Iraq. What there is today, we call it the Iraqi 
Security Forces, but in reality it is a consortium of Shia 
militias backed and trained and armed by the Revolutionary 
Guard Corps of Iran. And many people in the Sunni heartland of 
Iraq see them as worse occupiers and worse conquerors than 
ISIS.
    I know it is difficult to wrap your head around this. The 
Western imagination is very limited in this respect. But 
believe you me, in Syria we are paying a lot of attention to 
the Kurds. And every time I go on television or I talk to 
somebody, all of a sudden the Kurds are going to liberate all 
of the Middle East.
    I have a great deal of respect for the Kurds. I want an 
independent State of Kurdistan. But I respect them so much that 
I don't think they would be so foolhardy or stupid to march 
into Raqqa city or their Deir Ezzor city, much less Palmyra, 
much less Fallujah or Ramadi. That is just not their game. They 
are not interested in that, because they know they will be 
slaughtered.
    This what I would call, this sort of strategic region, the 
Euphrates River Valley, where they are still very much 
entrenched--I mean, they have lost terrain in northern Syria, 
they have lost Sinjar, their supply lines across Syria and Iraq 
have been interdicted--but they are entrenched in the part of 
those two countries that matters most to them. And the reason 
is because nobody is coming and presenting a more credible 
alternative to ISIS. This is the fundamental reality that needs 
to be appreciated by the United States Government.
    A final point. In 2003, when the U.S. invaded Iraq, Abu 
Musab al-Zarqawi, the founder of the organization known as 
ISIS, essentially made the case that the United States stupidly 
blundered into this country and accidentally handed it to the 
Islamic Republic of Iran. Today, ISIS isn't so sure it was an 
accident. What they are saying is, actually, no, there is a new 
coalition of the willing. It is the United States, Russia, 
mobilized, of course, by the Jews, backed now by Iran, the Shia 
militias and death squads of Syria and Iraq, Lebanese 
Hezbollah, and all the apostate or tyrannical Arab regimes in 
the Middle East and Turkey. There is what I would call a 
caliphate contra mundum conspiracy theory that ISIS is putting 
forward.
    And the dangerous thing is, if you travel to the region, 
and I do it a lot, and you talk to Sunnis, they have a hard 
time telling where ISIS conspiracy theory ends and U.S. foreign 
policy begins. On a bad day, so do I, frankly. You know, how is 
that Russia has been allowed to establish a no-fly zone, 
bombing not ISIS, as even ISIS says in its latest issue of 
Dabiq, its propaganda magazine, but bombing Free Syrian Army 
and rebel groups that are fighting both Assad--actually, Assad, 
Hezbollah, the IRGC, ISIS, and Jabhat al-Nusra all at once, and 
doing so with, on occasion, sophisticated weapons, but more 
often than not AK-47s and hand grenades.
    You know, this is the thing, geopolitics matters to ISIS. 
They pay much closer attention to our policy debates and our 
discussions--they may be watching us on C-SPAN for all I know--
than we do to what they are doing in their own terrain, in 
their own territory.
    And, look, if you look at the profiles of these foreign 
fighters, if you look at the profiles of people who are 
conducting these terror spectaculars or operations abroad, it 
is almost out of central casting. They are not fanatical 
Muslims by birth. In fact, they are first generation. Their 
parents came to Europe. They made a good trade. They had a good 
living. They sent their kids to good universities or good 
finishing schools. And these kids become radicalized remotely. 
They turn on the television. They see American warplanes 
dropping bombs on Muslim babies. ISIS is exploiting that like 
you wouldn't believe.
    We look at their atrocities, the immolation of a Jordanian 
airman. What we are not paying attention to is the other 20 
minutes of the video where they are showing literally infants 
being pulled from the rubble and saying this was courtesy of a 
Jordanian or Saudi or American bomb. It is very compelling. It 
is very compelling.
    And you don't have to be even a Muslim, much less a pious 
one or an Islamist, to find it so. And this is the pool of not 
even hardcore ideologues and supporters, but what I would call 
the fellow travelers of ISIS that they are drawing strength 
from. And, indeed, I mean, you may not be interested in the 
Middle East, but the Middle East is interested in you.
    And this is the thing. The leitmotif of U.S. foreign policy 
today is the more we absent ourselves, the more equilibrium 
will rise. Qasem Soleimani can be the next David Petraeus. I 
have got news for you: We are at a more dangerous period now 
than we were immediately after 9/11, because right now the 
level of anti-Americanism, it is actually--some of it is 
grounded in fact. Some of it is grounded in a crushing reality. 
Five years of attritional warfare, where Bashar Assad has 
dropped chemical weapons, barrel bombs, you name it, everything 
but biological and nuclear weapons on his own people, targeting 
whom? The Sunnis, the exact people we are going to need to 
fight and defeat ISIS.
    And in Iraq, 5 years of tolerating the thuggish regime of 
Nouri al-Maliki and now providing close air support to who? 
IRGC-backed proxy groups and militias who are liberating Tikrit 
only after U.S. F-16s come in. The Sunnis look at us like they 
hope this is a conspiracy, because if it is incompetence, then 
they absolutely have no faith in the United States.
    [The prepared statement of Mr. Weiss follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Poe. Thank you, Mr. Weiss.
    Mr. Sanderson.

   STATEMENT OF MR. THOMAS M. SANDERSON, DIRECTOR AND SENIOR 
FELLOW, TRANSNATIONAL THREATS PROJECT, CENTER FOR STRATEGIC AND 
                     INTERNATIONAL STUDIES

    Mr. Sanderson. Thank you, Chairman Poe and Ranking Member 
Keating and distinguished members of the subcommittee for the 
honor and opportunity to testify before you today on the 
challenge of ISIS following these recent attacks in Paris, 
Beirut, and in the skies over Egypt's Sinai Peninsula. I come 
to you with a perspective of from field work on terrorism and 
conflict across nearly 70 countries over the last 15 years. 
This includes interviews this year with current and former ISIS 
members who ply the border on Turkey's side quite freely.
    The question before us today is whether these attacks 
represent a strategic shift for ISIS, what policy options the 
U.S. might have, and how those attacks are impacting our 
understanding of ISIS.
    First, the attacks. I do not believe that the three strikes 
represent a fundamental shift for ISIS, but rather a logical 
evolution for an organization that is under heavy pressure in 
some areas, has always looked to strike its enemies, and one 
which has designs on territory well beyond Syria and Iraq.
    But just because these attacks may not be unsurprising does 
not mean we should not be alarmed. ISIS has claimed three 
strikes, two conducted by cells trained in Syria and one in 
Egypt conducted by an ISIS affiliate, which signal that the 
threat is growing, is very bold, technically adept with both 
encrypted communications and bomb miniaturization, and that 
expeditionary, out-of-area attacks are to be expected. We 
should act aggressively and smartly in countering them.
    ISIS has long called for strikes on states such as France, 
a nation for which ISIS has tremendous hatred and disdain. ISIS 
also counts hundreds, if not thousands of members who hail from 
France, affording them plenty of French passport holders who 
can maneuver in the country, across Europe, and into the United 
States.
    The attack in Lebanon was a bold move for ISIS and was 
likely carried out in retaliation for Hezbollah's support to 
the Syrian military. In Egypt, the ISIS affiliate, Sinai 
Province, has battled with Egyptian forces for years. The group 
is well aware of Russia's friendship with President Sisi of 
Egypt and with President Assad of Syria and is certainly 
mindful of Russia's disposition toward its own citizens who 
have joined ISIS. And of course, it is likely that the attack 
on the Russian airliner was as much targeted at Egypt's tourism 
industry, and by extension the Sisi government in Cairo, as it 
was on the Russians themselves.
    It is important for us to look at statements from ISIS over 
the past couple of years to understand how these attacks, 
especially Paris, fit in with the ISIS strategy. The ISIS 
strategy is focused on establishing and protecting its 
territory along the Syria-Iraq border and to build influence 
beyond that space. ISIS has reached out to Muslims the world 
over calling them to help run, build, and defend the Muslim 
caliphate. These calls often came with encouragement to attack 
ISIS enemies and promises that one day they will conquer Rome, 
shorthand for much of the West.
    In the October 2014 issue of their English language 
publication Dabiq, ISIS spoke of targeting the West and others 
in the coalition. This included statements such as,

        ``At this point in the crusade against the Islamic 
        State, it is important that attacks take place in every 
        country that has entered into the alliance against the 
        Islamic State, especially the U.S., U.K., France, 
        Australia, and Germany. Every Muslim should get out of 
        his house, find a crusader and kill them, and the 
        Islamic State will remain until its banner flies over 
        Rome.''

    It is also important to note that over the last 2 years 
ISIS has accepted pledges of loyalty from fighters from around 
the globe, including Libya, Egypt, Yemen, Nigeria, Russia, the 
Philippines, Pakistan, and many others, further expanding the 
ISIS footprint on the globe and reminding us that their base in 
Syria and Iraq is not the extent of their ambition.
    What should these attacks tell us about ISIS? Well, the 
attacks signal that ISIS intends to strike where necessary and 
when pressured. I fully expect them to target the United States 
and other members of the anti-ISIS coalition, and of course 
they have said that they are going to do that. For a group that 
is so focused on imagery, as seen in the thousands of well-
choreographed messages, images, videos distributed every day, 
this is a group that must be seen as making progress.
    These three attacks also tell us that ISIS, its affiliates, 
and supported cells, are able to strike successfully in hostile 
territory. In Paris, ISIS executed multiple attacks with 
several individuals moving between France, Syria, and Belgium, 
and did so in the midst of very competent law enforcement and 
intelligence agencies. In Lebanon, ISIS was able to operate 
covertly in a denied area crawling with highly suspicious, 
alert, and well-armed, well-trained Lebanese Hezbollah. 
Finally, in Egypt, ISIS affiliate Sinai Province was able to 
penetrate airport security and emplace a bomb that destroyed a 
Russian airliner, killing 224 people.
    These successful attacks are alarming for reasons far 
beyond the skillful tradecraft that was put on display. The 
impact is also felt in the recruiting realm. Given that ISIS 
offers a sense of mission, purpose, adventure, and revenge for 
young radicalized people, such attacks serve as a tremendous 
stimulant for these potential recruits. The attacks also 
demonstrate the possibilities for lone wolves or organized 
cells and signal that ISIS can make them happen over distance, 
in unfriendly spaces, and for little cost. From their perch on 
the margins of society, potential ISIS members witnessed the 
Paris, Beirut, and Sinai operations, and they want in on that 
action.
    Let's now consider the implications and possible responses. 
The most recent ISIS attacks present troubling implications for 
U.S. security and our anti-ISIS strategy. In Lebanon, ISIS has 
struck the state that remains fragile and which borders Israel 
and is home to 1 million Syrian refugees. The attack on the 
Russian airliner demonstrates that commercial aviation remains 
a very attractive, viable target for terrorists.
    The Paris attack offers the most significant concern for 
U.S. security. This long distance, sophisticated, high-risk 
ISIS operation succeeded on all levels. A leading member of the 
anti-ISIS coalition and close ally of the U.S. suffered a 
dramatic blow.
    With these examples and others in hand, it is not difficult 
to envision ISIS supporting a cell or lone wolves in similar 
operations inside the U.S. This would represent a bigger 
challenge for ISIS, but I do not think it is impossible by any 
means.
    Our response must be well conceived, precise, forceful, 
multidimensional, integrated, and enduring. But I will state 
upfront, I do not have a lot of confidence that we will succeed 
in many visible and tangible ways. Our country is not currently 
in the right frame of mind to take on this challenge. Many of 
our partners are incredibly problematic and the conditions and 
factors at play are so numerous and immensely complicated that 
I hardly know where to begin.
    Let me suggest some of the key actions that are needed in a 
campaign to gain some advantage in what will turn out to be an 
evolution in the violence and not a clear-cut victory. The 
Obama administration's objection to putting large forces on the 
ground is well-founded, but we need a much more aggressive 
posture in what we are doing now.
    The most important things we can strive for are political 
progress in both Syria and Iraq, ISIS leadership decapitation, 
more targeted strikes from the air, more flexible ROE with 
those strikes, territory denial, counterfinance and 
countermessaging.
    To make some progress in these areas we need to strengthen 
efforts at diplomacy, intelligence, special operations, the air 
strikes, training local forces, anticorruption, 
counterradicalization, good governance, and by addressing 
socioeconomic and political conditions where ISIS operates and, 
importantly, where they recruit. That list is a very tall order 
and it is not even exhaustive.
    I realize that we have ongoing efforts in each of these 
areas, but we clearly need to do more. We know what ISIS can do 
and we know where else they want to take the battle. So it is 
time to come together politically and to attack ISIS 
aggressively and intelligently. And if we as Americans lead, 
others will stand with us. Let's not wait for Washington to be 
hit before doing what is right and what is possible.
    [The prepared statement of Mr. Sanderson follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
                              ----------                              

    Mr. Poe. I want to thank all of our experts for your 
testimony. I found it fascinating and disturbing.
    We are in the midst of votes at this time, and so we will 
recess until approximately 1:30, and we will start questioning 
at 1:30--or 2:30, 2:30. And we will start at 2:30, not 1:30. It 
wasn't a trick.
    Thank you very much. We are recessed till 2:30.
    [Recess.]
    Mr. Poe. Thank you once again.
    Gentlemen, I have been in a lot of hearings, and I find 
that this hearing has turned out to be one of the most 
informative and disturbing of any hearing that I have 
conducted. You have given us a lot of information. Most of the 
information is alarming. And so I want to try to take the 
information all four of you experts have given Members of 
Congress on both sides about the threat of ISIS and try to 
narrow down some proactive things that we ought to be doing.
    It seems to me that our dealing with ISIS is reactionary. 
They do something, we react. Sometimes we do. Sometimes we 
don't react. But it is all reactionary. And being on the 
defense, our bunker mentality is not going to solve the problem 
of ISIS.
    So the question is with all of these conflicts--and Mr. 
Weiss made a flow chart to figure out all of the different 
entities about whose side they are on today and whose side they 
are on tomorrow and who these folks are--it is very 
complicated. So what is our answer to this? What is something 
we can do?
    And I agree with you totally, it has got to be a political 
answer. Long range, it has got to be a political answer. There 
has to be a military answer, maybe a financial answer.
    The United States doesn't have a real good track record, I 
don't think, of going into a region, eliminating whoever is in 
charge of the country, and then the result doesn't turn out too 
well. And sometimes it is worse than the government we got rid 
of or the regime or the dictator, whatever. So we destroy ISIS, 
there is a vacuum there. What happens when we eliminate them?
    First of all, what is the way we can policy-wise have a 
plan to eliminate them? But on the political front, what should 
we be doing as a replacement for all of those concerns that you 
mentioned about the people in the region, who they are looking 
to for leadership?
    So that is the question. So if each one of you would weigh 
in on some specifics, political results, military results, or 
things that we ought to be doing, long-term, short-term, to 
give us some guidance on America's role and ISIS.
    I have one question that I just need a yes or no from all 
of you on. Do you think that the United States should invoke 
Article 5, make this a NATO operation? Just like 9/11, after 9/
11, that became a NATO operation because we were attacked. 
Should this be a NATO operation or not? And then each one of 
you weigh in on the previous question that I just mentioned to 
you. So go down the row on the NATO operation.
    Mr. Boot.
    Mr. Boot. Mr. Chairman, I think there is some symbolic 
value to invoking Article 5, although, from what I understand, 
our French allies don't actually want to invoke it because they 
are hoping to get Russia on board and they don't want the NATO 
sponsorship to turn off Putin.
    Now, I think that, frankly, President Hollande is smoking 
something if he thinks that we are going to get President Putin 
on board with our agenda in Syria and Iraq, because Putin has a 
very different agenda. He is there to support Assad. He is not 
there to destroy ISIS. So I think this is not going to amount 
to anything.
    But I think there is some symbolic value to invoking 
Article 5 if we can get the French to go along with it. But I 
don't necessarily think that we need to turn this into a very 
complex NATO command structure, which we have had in the case 
of Afghanistan and which, to my mind, has actually been in some 
ways a small impediment to getting results because it becomes a 
question of balancing and having different officers from 
different nations who are put into this command structure for 
largely political, not for reasons of military effectiveness. 
And that is not necessarily the best way to go about business.
    But for the symbolic value, I think there is something to 
be said for that; and also, by the way, for passing a 
declaration of war or a stripped-down AUMF, not like the one 
the administration has submitted, but one that really gives the 
President, as the Commander in Chief, a great deal of authority 
to wage war and to destroy ISIS in any way he sees fit. I think 
there is something to be said for that too for the symbolic 
value that it has, even if at a practical level we can still do 
most of what we need to do without it.
    Mr. Poe. So would you recommend that Congress debate the 
issue of an authorization to use military force in the box of 
ISIS?
    Mr. Boot. Absolutely. I think that would be a good thing. I 
mean certainly the administration lawyers argue that they have 
the authority they need from the 2001 AUMF. But at this point I 
think anybody who is not in the administration understands that 
they are stretching things a little bit to use this 
authorization after 9/11 to attack ISIS, which is a group that 
basically did not exist on 9/11. I think they can do it. I am 
not saying that they can't. But I think it would be better if 
there were a stripped-down AUMF, one that did not include all 
the restrictions that the administration has put into their 
version of it.
    Now, on your other question, which I think is a very good 
one, about what happens after--well, first off, how do you get 
rid of ISIS and what happens after ISIS is gone. I think those 
are very good questions. In my testimony, I tried to address 
the question of how do you get rid of ISIS, which I think is a 
political-military strategy that involves slightly more 
commitment of forces on our part, but also a political 
strategy, which is key, to give the Sunnis a reason to fight 
against ISIS, which they really don't have at the moment 
because they are afraid that if they get rid of ISIS, they are 
simply going to trade the butchers of ISIS for the butchers of 
the Quds Force and Hezbollah and all these other Iranian-backed 
groups.
    So I think what you have to do, as I suggested earlier, is 
to offer Sunnis autonomy within Iraq in much the same way as we 
have done with the Kurds. Remember that going back to 1991, we 
have been protecting the Kurds. We have used our air power to 
say, ``Okay, Saddam Hussein, you are not going to be able to 
slaughter the Kurds.'' And out of that has grown up one of the 
few success stories in the Middle East in the last couple of 
decades, which is the Kurdish Regional Government which is, 
when you go from the rest of Iraq to the KRG, it is like 
leaving hell and winding up in heaven. I mean, they have done 
tremendously well under American military protection for the 
last couple of decades.
    I think that is a good model to emulate with the Sunnis in 
Iraq. I am not saying that we should give them a separate 
country. I don't think that is practical. But we should 
certainly create a Sunni Regional Government akin to the 
Kurdish Regional Government. And ideally we would do that by 
engineering a political deal in Baghdad, but that may not be 
possible because of the Iranian domination of the Baghdad 
regime. And if that is not possible, as I have argued before, 
we can act unilaterally on our own, work with the Sunnis. We 
can train and arm them in the KRG where there is already a huge 
number of Sunni refugees. And we can basically create for the 
Sunnis an autonomy within Iraq. We can train and arm the Sons 
of Iraq, like the Peshmerga, that will guarantee their 
autonomy. We can pledge to use American air power, if 
necessary, to protect them from an onslaught from the Shiite 
militias.
    I think that is the way that we gain the support of the 
Sunnis, and that is ultimately going to be, I think, the 
lasting political structure within Iraq, which is a very loose 
Federal structure and within it basically the Shiite, Kurdish, 
and Sunni regions.
    Now, in the case of Syria it is a much harder process 
because Syria is much more fragmented right now than even Iraq 
is. What I have suggested is that we need to have no-fly zones 
and safe zones in Syria, which would have many benefits, 
blunting the Assad killing machine, which has killed far more 
people to date than ISIS has, but also creating a space where 
you could actually train and arm the Free Syrian Army and, 
crucially, where you could also give the Syrian opposition 
movement, which we recognize as the rightful Government of 
Syria, you could give them a chance to actually govern on some 
territory so that eventually, once Assad is overthrown, there 
is more of a hope that a more moderate government can extend 
its way into ruling the entire country.
    I think what might actually happen in the end is that when 
we get to the point where ISIS and Assad are close to being 
overthrown in Syria, and we are nowhere close to that right 
now, once you get to that point, I think there is a case to be 
made for a Dayton-like process where you would have an 
international conference with an agreement to deploy 
international peacekeeping forces that would, for example, give 
some assurance to the Alawites that they are not going to be 
slaughtered by the Sunnis that they, themselves, have been 
slaughtering for so many years, give some assurances to the 
Kurds, give some assurances to the different Sunni 
communicates.
    But we are nowhere close to that right now, and I think we 
are not going to get there just by convening conferences in 
Vienna or Geneva right now. The only way to get there is to 
change the balance of power on the ground, and that means 
creating a more viable, moderate opposition in Syria, enabled 
by greater American aid, and allowing them to go after not only 
ISIS, but also after Assad, and helping them by preventing 
Assad's air force from bombing them and helping them by 
creating these safe zones where refugees could stay there, the 
Free Syrian Army could train there, the Syrian opposition could 
begin to rule there. I think that is the beginning of a 
solution to the nightmare that is Syria today.
    Mr. Poe. Thank you, Mr. Boot.
    The Chair recognizes that he went over the 5-minute rule. 
And I am going to use a word that I don't use very often: I 
will be a little more liberal on the time for each of the other 
members, including you.
    Go ahead, Mr. Keating, from Massachusetts.
    Mr. Keating. Well, thank you. Maybe we can do other rounds 
too. I will try and stay within that timeframe.
    But, Mr. Weiss, the gentleman that you interviewed in 
Istanbul that fled ISIS, you must have asked him why 
specifically he left. Could you enlighten us with that story?
    Mr. Weiss. Sure. So he spent 11 months with ISIS, and he 
said within the first 2 he wanted to leave. So he essentially 
spent 9 months plotting his escape. Because the irony is, when 
you are a member of amn al-dawleh, you have trained up the very 
people who will be manning the checkpoints and the border guard 
to interdict you if you try to flee. And it was sort of out of 
a le Carre novel, the way he described all the preparation, the 
obtaining of the false----
    Mr. Keating. But why did he make that choice after 2 
months?
    Mr. Weiss. So he chose because he said the pervasive 
climate of paranoia and lies that had been inculcated. Again, 
he was in a town called al-Bab. I was in al-Bab in 2012. I 
embedded with the Free Syrian Army when it took this town from 
the Assad regime and I saw the life and the sort of civic 
exuberance that was being displayed. I mean, 40 years of 
totalitarian rule and all of a sudden they are a free people, 
cleaning up the streets at night, having all-night parties and 
discussions in the cafes. All of that was put asunder by ISIS 
when they came in about 5 to 6 months later.
    He said to me the sort of turning point moment was what he 
saw at the farm. What he was referring to is, there was a 
farmer who came to him and said, ``Abu Khaled, I run this olive 
farm just north of al-Bab, and it is full of bodies. Every time 
I till the soil, I turn up an arm, a leg, a foot. And, 
obviously, this is Daesh doing this. Can you intervene?''
    So Abu Khaled went to the emir of al-Bab--who drives a BMW, 
by the way, because, as he put it, ``Alhamdulillah, the Islamic 
State is very rich,'' and the emir said, ``No, this isn't us, 
we don't know anything about it.''
    Abu Khaled, a few weeks before, had witnessed the execution 
of a guy that ISIS said was a spy for the coalition. He had 
been dropping GPS devices, they accused him of, in al-Bab, the 
better that coalition warplanes could target positions on the 
ground. This guy was, as you can imagine, beheaded, and his 
head was stuck on the pike in the center of al-Bab. He was very 
distinctive because he was wearing an Adidas track suit, black 
and white, I think the colors were.
    The next time Abu Khaled went to the farm, he saw the body 
of this man. So he went back to the emir and he said, ``Come 
on, this is you, this is your doing. This is your sort of 
makeshift burial ground.'' A day later the emir comes back to 
him and says, ``Ask the farmer how much he wants for his 
farm.'' Abu Khaled said, ``If you open the Islamic State daily 
newspaper, it is like reading Pravda or it is like reading 
Syrian state media.''
    Mr. Keating. Why did he initially join?
    Mr. Weiss. He said because he thought that the United 
States was behind Bashar al-Assad and Iran and Russia. 
Essentially he bought into the ISIS geopolitical narrative, 
there was this conspiracy.
    Mr. Keating. Now, his story about why he left, do we have 
enough people telling that story?
    What do you think, Mr. Sanderson.
    Mr. Sanderson. Congressman, I wanted to relate a story--to 
answer your question very quickly, no, of course we do not have 
enough people telling that story, certainly not in comparison 
to the numbers within ISIS that are telling their story.
    The 16-year-old that I interviewed on the Turkish-Syrian 
border joined ISIS in January of this year. He was the youngest 
of 21 children. His father died a year ago. He was in ISIS for 
2 months. And the reason he left was because within 2 weeks of 
entering the training program ISIS vectored these young 
recruits against an attacking force that was coming to seize a 
salt mine that ISIS controlled. ISIS made up a story about who 
those attackers were, said they were bandits, criminals, et 
cetera. It was the Nusra Front.
    And this young man and his friend left because of the lies 
that ISIS told about the Nusra Front, which is very popular 
among many Syrians for its high content of Syrian leadership 
and for its direct attacks again the Syrian Government. So he 
left because of the lies that ISIS had told him and the other 
young recruits who just after 2 weeks of training were put into 
action against the Nusra Front.
    Mr. Keating. So it is very difficult to get out.
    Mr. Sanderson. Oh, yeah.
    Mr. Keating. How common is it that they are killing--I know 
they take people's passports usually right off the bat if they 
are coming from----
    Mr. Weiss. It is actually a recent phenomenon.
    Mr. Keating. Do they kill a lot of these people if they try 
to escape, make examples of them?
    Mr. Weiss. Oh, yes. Well, there is the recent example of 
two Bosnian girls from Vienna had gone over. One of them 
recently tried to escape and they bludgeoned her to death. And 
it is not because they care that they are losing members of the 
caliphate. It is because they don't want these people to come 
to the West or come out and essentially blow the whistle and 
expose them for what they are.
    There is another vulnerability that doesn't get enough 
attention here, and actually there is precedent for it because 
the same thing happened in Iraq. Zarqawi had always presented 
the insurgency in Iraq, at least the al-Qaeda in Iraq 
insurgency, as a national--well, essentially one made up of 
native Iraqis. That wasn't true. Remember, the tip of the spear 
for the insurgency, the bulk of it was Iraqi, but the tip of 
the spear were foreigners, Jordanians, Saudis, whatever. He 
attempted to Iraqize the franchise because he realized that 
Iraqis were now seeing two forms of occupation, one by the 
Americans and the coalition, the other by al-Qaeda in Iraq.
    The same thing is happening today in Syria. ISIS is run by 
Iraqis at the top, including, again, members from Saddam's 
regime, and everybody who is being appointed to serve in the 
amn'ni, or the amn'niate, which is their security apparatus, 
they are all non-Syrians. So if you are a 60-year-old woman 
living in al-Bab and you have lived there your whole life and 
all of a sudden a 25-year-old Tunisian comes over and says, 
``Cover your face, go to mosque, what are you doing outside the 
house without a husband or an escort, go to mosque,'' this is 
like having foreign rule, foreign occupation.
    That is a, I hate the word ``narrative,'' but I am going to 
use it anyway, that is a narrative that has not been 
emphasized. Syrians are very nationalistic, especially the ones 
that have zero Islamist or jihadist ideology, and they feel now 
that they are chafing under the kind of occupation that, 
frankly, is coming from people that they have never met and 
have countries they have never even be to. We need to emphasize 
that fact. It is a way to sort of increase the resistance.
    Mr. Keating. Thank you very much. I will yield back to our 
new chair.
    Mr. Rohrabacher [presiding]. The new chair? I have 
succeeded. There I am.
    Listen, thank you to the witnesses. And I will proceed with 
my questioning and then to Mr. Higgins.
    Let me note that I spent a lot of time in the Reagan White 
House in the 1980s. I was with him for 7\1/2\ years. I was a 
speechwriter, but also a special assistant to the President. 
And one thing I noted, that Ronald Reagan took a lot of 
criticism during the time period, but he ended the Cold War. No 
one gives that credit to Herbert Walker Bush. They give the 
credit to Ronald Reagan and justifiably so, because Ronald 
Reagan prioritized what he wanted to accomplish. He prioritized 
what we are going to do is we are going to eliminate our major 
threat. What is our major threat? The Soviet Union isn't the 
ultimate threat to the United States and the world today.
    Unfortunately, it seems like we cannot support people today 
who are killing the people who want to kill us, the people who 
are the great threat, the greatest threat to the security of 
the people of the United States and other Western countries, 
unlike Ronald Reagan--we did work with some unsavory 
characters, and we brought down the Soviet Union, and that was 
the goal--because those other unsavory characters maybe at a 
smaller level were not good people, but they at least were not 
threatening to injure the people of the United States or other 
parts of the free world.
    Mr. Boot, I am sorry, but I am appalled at the Council on 
Foreign Relations and what has been happening with the option 
of allowing the Russians to play a major role in defeating 
radical Islam, which is the greatest threat to the security of 
the people of the United States. Russia is no longer the Soviet 
Union and it is being treated as if it is still the Soviet 
Union. And it is appalling to me when I hear people going out 
of their way to say what Putin is thinking. So you don't think 
that Putin is not there to destroy ISIL. How many people were 
killed in that Russian airliner? Do you think that had anything 
to do with his judgment? You don't give Putin that credit?
    Mr. Boot. Well, with all due respect, Congressman, Putin 
was in Syria before that airliner was blown up. And if you 
actually look at the pattern of Russian air strikes, very few 
of them are hitting ISIS-held areas. Most of them are hitting 
areas held around Aleppo and so forth, which are held by 
moderate opposition groups backed by the United States.
    Mr. Rohrabacher. Does anyone else have any information? 
Because the information I read is that is not true.
    Mr. Weiss. Well, Congressman, if ISIS believes that Russia 
is not hitting ISIS, I would consider that pretty much evidence 
against interest. If you look at their latest propaganda 
magazine, Dabiq, they actually laugh, they mock the Russians 
and they mock us, and they say that the drunken Russian bear is 
bombing here, there, and everywhere, confusing think tankers 
and journalists.
    In fact, their intervention is targeting the America-backed 
Sahwa forces. That is to say, Sunni rebel groups that are 
fighting ISIS, that is who Russia has been bombing. Reuters 
conducted an investigation a few weeks ago, an independent one, 
no government sponsorship, found four-fifths of the sorties had 
been going after non-ISIS targets.
    Mr. Rohrabacher. You guys are better read than I am on 
this. But let me just say----
    Mr. Weiss. Well, there is another point that doesn't get 
enough attention as well.
    Mr. Rohrabacher. I have talked to several people from the 
region. However, let me move--it goes from what you are saying 
here, and that is--and by the way, I appreciate, you gave me a 
briefing once, it was excellent, I might add.
    Assad being this horrible, evil regime, the people who were 
rising up against the Assad regime within Syria, did they have 
any outside support from any Sunni-based governments in the 
region? Of course they did.
    Now, tell me this. Of those other governments that happen 
to be friendly to us, do you think that if there was an 
uprising that was sponsored by, let's say, Assad or someone 
that they didn't like, that those regimes--do you think Qatar, 
for example, if there is an uprising among those many, many 
more non-Qatar citizens, were uprising and they were being 
supported by somebody like Assad, do you think that they would 
be less likely to commit atrocities against those people?
    I think that--I am just--I will just posture, because there 
is no doubt in my mind, I note that the Qatar people, they are 
good people, but the fact is, if there was some type of a 
Shiite-backed uprising among the people who live in Qatar, you 
would probably have just as many thousands, or proportionately, 
murdered in order to maintain that government.
    And Assad has been portrayed as something different and 
Putin is portrayed as something different. The fact is that 
they are flawed. And right now, neither Assad nor Putin 
threaten to murder thousands of Americans if they get their 
chance. If a bomb goes off, a nuclear bomb goes of in 
Philadelphia or Los Angeles, it is going to be a radical 
Islamicist bomb and it is not going to be Putin.
    Putin is out there trying to at least come to grips. And by 
the way, what does he have to do with fighting, why is it he is 
not there to destroy ISIL? How many ISIL soldiers come from 
Chechnya, Mr. Boot?
    Mr. Boot. I don't know. Some do. But there is certainly 
evidence that Putin has looked the other way as people from the 
Russian Caucasus have gone to join ISIS.
    But if I could make a longer point----
    Mr. Rohrabacher. I will let you make your point. But let me 
just note the reports that I heard, there have 3,000 and 5,000 
Chechnyans in ISIL. Now, don't tell me that what is Putin doing 
there. They blow up his planes. They have people who are 
murdering--these Chechnyans who are murdering Russians in 
Russia.
    Yes, Putin may be there and he is a flawed guy, he is a 
thug, as everybody says, but just like Ronald Reagan, we had to 
deal--look, we made an alliance with China during the Cold War 
in order to defeat the Soviet Union. We made a deal with the 
Russians during World War II to defeat Hitler. That is great. 
But right now, the Council on Foreign Relations and the people 
who just can't get over the Cold War is over are basically 
putting us at a great disadvantage to be working with somebody 
who shares a common enemy.
    Go right ahead and retort that, it is fine.
    Mr. Boot. Congressman, if I thought that Putin was actually 
going to intently fight ISIS, I would be all in favor of making 
common cause with him. Unfortunately, what he is doing is he is 
supporting Bashar Assad, who is the greatest recruiting tool 
that ISIS ever had. As long as Bashar Assad is out there 
dropping barrel bombs and killing people, what he is doing is 
he is driving Sunnis into the arms of ISIS. That is why ISIS is 
able to have a raison d'etre. That is why ISIS is able to 
posture itself as the defender of the Sunnis in Syria against 
the butchery committed by Assad, by Russia, by Iran, by 
Lebanese Hezbollah, and all these other groups.
    Mr. Rohrabacher. There was an uprising going on, and he was 
very heavy-handed in trying to defeat that uprising, and there 
is no doubt about it.
    Mr. Boot. And he is still heavy-handed. And as long as he 
continues slaughtering Sunnis, that gives ISIS a reason to 
exist. There is a symbiotic relationship between the Iranian-
backed forces like Assad and the Sunni extremists on the other 
side.
    Mr. Rohrabacher. You expect the Saudis and the Qataris and 
the others would be far more humane than what Assad was?
    Mr. Boot. Well, they may not be. But they are not the ones 
who are slaughtering 200,000 people at the moment.
    Mr. Rohrabacher. Right now. Right now they are. But you are 
putting Assad in a different situation because he was 
confronted with an uprising being sponsored by an outside 
power.
    Mr. Higgins, you may proceed.
    Mr. Higgins. Thank you, Mr. Chairman.
    Mr. Weiss, you were making a point during my colleague's 
questioning that you said was important. Do you want to finish 
it?
    Mr. Weiss. You will have to remind me, Congressman, what 
was the----
    Mr. Higgins. You were talking about narrative and you were 
talking about something that hadn't been talked a lot about.
    Mr. Weiss. Oh, yes, the idea of foreign occupation, that 
ISIS is essentially a new form of colonial rulership. That is 
very powerful. A lot of Syrians, as I said, dislike being 
governed and lorded over by people that come from other 
countries.
    If I may say, there is another element to this too. We have 
done nothing, nothing substantive I should say, to really 
demonstrate to Sunni Arabs that the United States has their 
plight and their dispossession and ethnic cleansing and murder 
to heart. A tweet by Samantha Power every now and then doesn't 
cut it. This has to be backed by fire and steel. Max is 100 
percent right.
    I actually disagree with Max on one point, though. I think 
Syria is exactly the place to start. Demographically speaking, 
it is a Sunni-majority country. That means that, as I 
mentioned, as everyone here has said, the very constituents you 
need to turn against Sunni Taqfirism or Sunni jihad are right 
there, and they are willing and they are able, but they face a 
lack of credible alternatives.
    And here is the thing that sort of gets me. You know, the 
U.S. puts out this policy of train and equip, right? We are 
going to create essentially a Sunni--actually it was Sunni-
Turkman, not even Sunni-Arab at the start--but a Sunni 
counterterrorism proxy force, send them in with packs and M-4 
rifles and white pickup trucks, and have them fight not only 
ISIS and make them forswear in a piece of paper that they will 
not use the weapons and the training they received to go after 
any of the other manifold groups, which, as Max also pointed 
out, are responsible for the vast, overwhelming majority of 
casualties and fatalities.
    A study that was done recently found that between January 
and July of this year, Assad killed seven times the number of 
people that ISIS has killed. For every atrocity ISIS has 
committed, Assad has done one better, including burning people 
alive.
    We sent them in with a target painted on their back, right? 
And it was no surprise that some of them defected to al-Qaeda 
or sold their weapons.
    Now, the one program that is being done with a marked 
degree of success is the one that nobody wants to talk about, 
which is the clandestine CIA program to back 39 rebel militias 
in Syria, provide them, through Saudi Arabia, with TOW antitank 
missiles. Putin has gone after them expressly, and I know it 
because I talked to the rebel commanders from those units. And 
still they hold the line. They have made, as they put it, a 
graveyard of Syrian tanks in Homs and the al-Ghab plain.
    Nobody wants to talk about this because this is the one 
thing we are doing to actually give the constituents, the 
indigenous people of Syria, some incentive to work with us. 
They want to fight Assad first, and they want to fight him for 
a very pragmatic, simple reason: He is the one killing them.
    Mr. Higgins. You were embedded with the Free Syrian Army?
    Mr. Weiss. Yes.
    Mr. Higgins. How long ago?
    Mr. Weiss. In 2012.
    Mr. Higgins. How do you define the Free Syrian Army?
    Mr. Weiss. In my personal experience, the people that I 
saw, they protected me. I did a tour of the entire city with 
them. I talked to innumerable activists. I mean, I am a 
journalist for a long time. I can tell when I am being gamed or 
somebody is giving me a statement that is coerced or not 100 
percent truthful.
    Mr. Higgins. Did you use the number 39 units or militias?
    Mr. Weiss. This was way before that program was 
inaugurated, or I should say before the program gained enough--
--
    Mr. Higgins. In your experience, is the Free Syrian Army or 
was the Free Syrian Army a cohesive, monolithic group?
    Mr. Weiss. At the time, there were a lot of different rebel 
units, but they had a common objective. Now, they were 
insufficiently backed. You want to talk about external support.
    Look, here are the facts, I have been to Turkey many times. 
All these weapons have been pouring in from Libya, Saudi 
Arabia, Qatar, Kuwait, you name it. But they sit in warehouses. 
And you have Western intelligence officers going through the 
warehouses with a manifest saying, ``Yes, you can have this. 
No, you can't have that.'' The price of bullets in Syria went 
up astronomically when the insurgency was in its second or 
third year, okay? They fire their ammunition. They run out. 
Then they have to come back and say, ``Mother, may I,'' to get 
more. All the while they are facing down fighter jets, barrel 
bombs, Scud missiles, sarin gas.
    You are asking these rebels--Derek Harvey, a former Defense 
Intelligence Agency analyst who anatomized the Iraqi 
insurgency, put it best: We are asking them to fight five 
different enemies at once with slingshots. And you wonder why 
they have descended into chaos or, in many respects, defected 
over to al-Qaeda or over to ISIS.
    Mr. Higgins. We spent, the United States spent about $\1/2\ 
billion, about $500 million, trying to train and equip a 
moderate fighting force that was vetted through the United 
States of Free Syrian Army representatives. Was that inaccurate 
or insincere?
    Mr. Weiss. Well, that was the program I referred to, 
Pentagon's train and equip. As computer programmers say, the 
bug was a feature, not an accident, right? The 
conceptualization of the program was completely flawed. The 
raison d'etre of all Syrian rebels is to go after the regime, 
not ISIS. They say, ``We will get to ISIS eventually, they are 
our enemy.''
    There is another program. We say that these groups were 
vetted. Yeah, the rank-and-file soldiers were vetted. But guess 
what, I have done deep reporting on this and I helped bury the 
program because it was so flawed and tainted. The commanders, 
the brigade commanders we were sending in to lead these guys 
had not been properly trained or vetted. And it is any wonder 
that they took our materiel and sold it to al-Qaeda?
    So this is the program that, frankly, I opposed from the 
very beginning, because you have to understand the culture, you 
have to understand what these people are going through.
    Mr. Higgins. You make a good point.
    Mr. Boot, I just wanted to, on Iraq, you have advocated for 
a Sunni Regional Government that would be autonomous, protected 
by its own militia, and guaranteed by the United States. You 
also suggested in your testimony the 30,000 or 40,000 U.S. 
troops on the ground in Iraq to fight with Sunnis and that we 
would train and arm the Sunnis in Iraq.
    As you know, the United States spent $24 billion, $25 
billion training an Iraqi Army of some 240,000 fighters, 
including security and police forces. That failed miserably. 
How does this work logistically? And how does that affect the 
relationship if, in fact, it matters, with the Shia-led 
government.
    Mr. Boot. Well, I would say, based on my personal 
experience on numerous trips to Iraq going back to 2003, that 
our train and equip program for the Iraqi Security Forces was 
actually working pretty well until we completely pulled out in 
2011. And what happened after that is that the Shiite sectarian 
regime in Baghdad completely corrupted and perverted the 
security forces, which is why when ISIS rose up and struck, the 
security forces fell apart.
    At the moment, what we have been doing basically is we have 
been trying to pour new wine into old bottles. We have been 
trying to provide support for the Iraqi Security Forces as if 
they still exist in their old pre-2011 from. But the reality is 
that they don't. They remain hopelessly compromised by the 
Iranians and the Shiite sectarians who really run the regime 
there. And most of the energy of the government has been poured 
not into standing up nonsectarian Iraqi Security Forces, but 
rather in creating these popular mobilization forces, which are 
Shiite militias effectively under the control of Iran.
    Now you hear from the regime in Baghdad that they don't 
want U.S. troops in Iraq to fight ISIS. Well, of course they 
don't want U.S. troop because that would interfere with Iranian 
designs to dominate the Shiite heartland of Iraq.
    Mr. Higgins. Let me ask you this. The name of Qasem 
Soleimani is often invoked. He is a guy that clearly gave Nouri 
al-Maliki his final term. He is a guy that has demonstrated 
extraordinary influence with the Shia government with his 
control of the Shia militias. He probably saved Bashar al-Assad 
in Syria in the final hour by actually traveling there and 
conducting ground forces on the ground.
    You know, going in there and propping up the Sunnis by 
promising or committing to a regional government, does that not 
necessarily--I am not saying that--I am not defending him in 
any way, shape, or form, the current government or the previous 
government in Iraq, because I think that whole experiment has 
been a huge, huge failure for a number of reasons. We have 
empowered the very people that we are trying to push back. But 
does that not necessarily sow the seeds of a new civil war 
between Shia and Sunni in Iraq?
    Mr. Boot. Well, you already have a civil war going on in 
Iraq. What I am suggesting is to create a more durable balance 
of power that will actually keep the peace. What I am 
suggesting is that if we create, whether working through 
Baghdad or directly on our own, if we create the Sunni Regional 
Government that would be protected by its own Sons of Iraq 
militia and ultimately by the guarantee of American air power 
and American support, I think that could create a balance of 
power, because essentially you would have the Sunnis in control 
of the Sunni area, the Shiites in control of the Shiite area, 
the Kurds in control of the Kurdish area, and you would have a 
more peaceful situation of the kind that actually existed in 
2011 before we left Iraq.
    At the moment, of course, what you have is the most radical 
and extreme Shiites in control of the Shiite areas, ISIS in 
control of the Sunni areas, and the Kurds, fairly moderate 
Kurds, in control of their own areas.
    The bottom line is that the Sunnis have no reason to fight 
ISIS if they think that ISIS is going to be replaced by the 
kind of Shiite tyranny that they have known after 2011. You 
have got to give them a reason to fight ISIS. And, basically, 
the reason is you have to give them a political end state that 
they would be satisfied with, and the only one that I could 
foresee right now is some kind of autonomy, which is not going 
to be easy to do.
    And they are not going to trust us very well because they 
feel like we abandoned them in 2011. But if we show that we are 
willing to help them, if we are willing to put some troops on 
the battlefield to work with them, and if we are willing to 
keep troops long term in, let's say, the KRG, maybe in Anbar, 
and somewhere else, I think that might give the Sunnis enough 
confidence and might create a more stable end state under this 
loose Federal structure in Iraq. I think, at this point, that 
is really the only good bet that we have.
    And simply continuing to support the Shiite sectarian 
regime in Baghdad, as we are doing now, even sending them F-
16s, that doesn't make any sense because essentially what we 
are doing is we are subsidizing the Iranian power grab in Iraq, 
where our Air Force is basically acting as the air force for 
the Iranian militias. That is not helping to defeat ISIS. That 
is only helping to entrench Iran more deeply in Iraq.
    Mr. Higgins. Just a final thought, Mr. Chairman. We have 
been dealing with this issue, whether it is the Foreign Affairs 
Committee, the whole committee, the subcommittee, joint 
committees of Homeland Security, Foreign Affairs. And it is 
like Tom Friedman used to say, he would go to the Middle East 
and he would say, ``I have traveled this area, I have studied 
it, I have written about it, it is all very clear to me now: 
What a mess.''
    But I think the point is there is a book by Marwan Muasher 
called ``The Second Arab Awakening,'' and in it he argues that 
the Middle East it a very pluralistic society. And Bashar al-
Assad in Syria is an Alawite, which is a variant of Shia, and 
it is not that everybody supports him, it is that the minority 
groups that gravitate to him are afraid that they will get 
slaughtered if a Sunni government takes over in revenge.
    And that is a big part of the problem in the Middle East. 
So long as there is a zero-sum game, the sum will always be 
zero. And unless and until minority rights are actually 
respected and guaranteed in some kind of document, not even a 
constitution or a preamble, whatever.
    You know, I look at the situation in Northern Ireland, 
although it is not perfect today, but you took two warring 
factions as part of the Good Friday Accord and they both had to 
denounce violence. You know, there was mutuality. They had to 
take risks. Gerry Adams of Sinn Fein, his life was not 
threatened from without, it was threatened from within because 
they were moving away from a physical force tradition.
    And I think until you have that kind of breakthrough with 
real leaders that have a vision for Middle East peace, you are 
going to have a continuation of this horrible situation from 
which there are nothing but bad decisions for the United 
States.
    Mr. Rohrabacher. Thank you for that insight.
    Ms. Kelly.
    Ms. Kelly. Since my day has started, it seems like I have 
been in meetings dealing with this topic. And one thing that 
came up was about Turkey and their questionable partnership, 
are they really true partners. Another meeting I was in, they 
spoke about how porous their borders are and a lot of things 
are going through Turkey that are causing problems for the 
United States and others.
    What do you think that we can do to truly get them 
committed to defeating ISIS, or what can NATO do, if you think 
they aren't true partners or really committed?
    Mr. Sanderson. Thank you, Congresswoman. I would support 
your suggestion that they have not been true partners. From day 
one, they have facilitated the movement of extremist fighters 
through their border to fight Kurds and to fight the Assad 
regime. Fighting the Assad regime is a good goal, but fighting 
the Kurds has not been, and they are our best partner on the 
ground.
    They have tightened their borders a little bit, but they 
still see these elements, these extremist Islamist fighters 
coming in as doing their bidding against Kurds in particular. 
They do have a big border, but they have allowed these 
fighters, fighters I have interviewed, fighters that have been 
treated in Turkish hospitals, and I have seen those medical 
records and I have seen those fighters, they still ply the 
borders from Turkey's side.
    I do not know what we can do to turn the screws on them. 
They seem to have an awful lot of leverage. The President has 
publicly upbraided them for not doing all that they can. But we 
take a lot of advantage from using the Incirlik Air Force Base 
there. That is part of the deal we have with Turkey.
    Unfortunately, I think they hold a lot of the cards. And as 
powerful as the U.S. can be, in this area, the Turks are very 
much a tier 1 actor and they can call a lot of the shots. But 
they are not being nearly as helpful as they could be.
    Ms. Kelly. That is very disappointing.
    Anyone else have a comment?
    Mr. Gartenstein-Ross. Congresswoman, thanks for the 
question. I think it is excellent.
    I think that Turkey has taken a very dark turn. In addition 
to what Mr. Sanderson has said, I would point to two factors 
that are worth looking into. One is Turkish charities that have 
been supporting extremist factions throughout the world. There 
is a lot of information on that. And the second thing is I 
would look into recent U.N. delisting of extremists who were 
hosted in Turkey, including Mohammed Islambouli, who, according 
to open source reporting, is a high-level figure in the 
Khorasan Group, which is associated with al-Qaeda.
    I think that Turkey is not supporting ISIS. I think they 
are supporting al-Qaeda factions. And that points to one other 
thing that I think is worth raising. Mr. Sanderson referred 
earlier, in the Q&A, to the 16-year-old he spoke to who left 
ISIS because ISIS conscripted him to fight against Nusra. The 
Nusra Front is the al-Qaeda affiliate. As Mr. Sanderson said, 
the Nusra Front is very popular in Syria.
    So while we wouldn't like it to be this way, dealing with 
the problem set of al-Qaeda I think is actually even more 
complex than dealing with the problem set of ISIS. And our 
moderate rebels have been helping al-Qaeda to take ground. I 
mean, this is something that I wish were not the case. But 
since the Russian bombing started, U.S. officials have been 
very open about that in the media. They have named areas where 
moderate rebels were bombed, such as Idlib and Hama, and those 
correlate with areas where Nusra has control, and Jaish al-
Fatah, which is the coalition it is a part of, but where it is 
the major faction.
    Now, I agree with what Mr. Weiss said, which is that if you 
look at it from the rebel perspective, I don't think this makes 
them terrible people. I mean, when you are faced with enemies 
on all sides, you are going to find temporary marriages of 
convenience.
    The real question I have is, are we going to be able to 
clean this up in some way? Or are we helping al-Qaeda to take 
ground only to create another mess? I think it is something 
that really deserves a hearing both with advocates, such as Mr. 
Weiss, of arming the rebel factions and also those who are 
opposed to it. Because what I see deeply disturbs me, and I 
also think it is actually a violation of U.S. law.
    Mr. Weiss. I agree with everything Daveed said, including 
Turkey's dark turn. You will recall the U.S. Special Forces 
raid that killed Abu Sayyaf, I think somewhat erroneously 
referred to as ISIS' oil minister or CFO, some of the best 
reporting done on the aftermath of that raid was done by a 
friend of mine at the Guardian, Martin Chulov, who said the 
intelligence that the U.S. took back from that compound has 
very much implicated the Turkish Government in all kinds of 
conversations and discussions with senior ISIS officials. 
Turkish businessmen have been buying more oil from ISIS than 
even Bashar al-Assad, who remains one of the chief financiers 
of ISIS through the energy economy trade.
    I think that this is exactly as Daveed said, let the 
Islamists and the jihadists come in and let them be the 
commandos if NATO doesn't want to have it. Assad will take it 
by hook or by crook.
    I have traveled the Syrian border from Turkey. I can give 
you a funny anecdote or two. There was a native from Homs, 
Syria, wearing a keffiyeh, who was stopped by the Turkish 
Gendarmerie and questioned, interrogated for 20 minutes because 
the guy didn't think he was Syrian. I went across, no problem. 
So apparently I look more Syrian than someone from Homs.
    Another journalist friend of mine who is Indian was 
actually stopped once. He has been across that border two dozen 
times. And the last time he was stopped and arrested, he 
convinced the Turks that he was a Syrian refugee. I guess he 
had dark skin. They gave him a refugee card. Now he can go back 
and forth as he likes. He is a British journalist too, but from 
India by heritage.
    It is a sieve, that border, and it is a sieve not because 
it is so difficult to invigilate, but because the Turks have 
chosen to look the other way.
    With respect to the rebels, I want to be very clear. David 
Petraeus, not exactly a squish on radical jihadism, Sunni or 
Shia, made a very controversial comment actually to the Daily 
Beast, my publication, several months ago. He said, look, there 
are elements within Jabhat al-Nusra, which is the official al-
Qaeda franchise in Syria, that we can peel away to work with 
us.
    Now, this was remarkable for two reasons. Number one, you 
will recall the awakening/surge period in Iraq. The only group 
that the U.S. refused to work with in the Sunni insurgency 
constellation was al-Qaeda in Iraq. There were every other 
group, whether nationalist, Islamist, or even, frankly, 
borderline jihadists, who had been on Tuesday bombing U.S. 
compounds or military checkpoints or forward operating bases, 
on Wednesday receiving U.S. weaponry and close air support 
because they had become essentially a paramilitary squad 
hunting and killing al-Qaeda in Iraq.
    A same dynamic exists today in Syria. Now, Daveed is right, 
rebel groups that we would consider, quote/unquote, moderate or 
nationalistic or at least not so bad in the Islamist 
orientation, work cheek by jowl with Nusra or work at an 
operational tactical capacity with Nusra because they think 
Nusra, frankly, most of them are Syrians, they are not so bad, 
and, yes, the West demonizes them all as al-Qaeda, but we know 
a lot of these people.
    There are interviews. I can acquaint every member on this 
panel with many of them. People who went from the anti-Assad 
protest movement to some to FSA battalion to Jabhat al-Nusra to 
ISIS, then defecting. What does that tell us? Not everybody is 
born a die-hard ideologue. Not everybody who is a jihadi 
yesterday will remain one tomorrow. There is a lot of human 
capital that can still be worked with.
    But, again, you have to be persuasive. You have to show the 
Sunni Arabs of that country that we have their back, that their 
plight matters to us. And right now, they think the opposite is 
true. And that, ultimately, in addition to Assad's depravity 
and the IRGC's depravity and Lebanese Hezbollah's depravity, is 
the greatest recruitment drive for ISIS.
    Mr. Boot. If I could just jump in and make one fast point. 
I think we have really been hurting ourselves. We have been in 
this cycle in Syria since 2011 when we say, ``Well, we are 
concerned about who the rebels are, we are concerned that some 
of the rebels are radical Islamists, so we don't really want to 
help them, we are going to stand back and watch what happens.''
    Well, what happens is exactly what my colleagues have been 
describing, which is that when we are not doing more to help 
the moderates, that only helps the extremists, because the 
extremists find support from other countries, from outside 
backers, what have you, whether it is Turkey, Qatar, whoever, 
winds up backing the more radical elements and those are the 
ones that get in power.
    And then a few years down the road we are saying, ``Oh, my 
gosh, where are the moderate rebels? They don't exist 
anymore.'' Well, what do you expect would happen if we are not 
providing the same kind of backing to the moderates that other 
groups are providing to the extremists?
    But to underline the point that Michael has just made, and 
I think it is an important point, which is that a lot the 
people who are with the al-Nusra Front or who are with ISIS are 
not necessarily ideologues, they are not necessarily fanatical 
jihadists, they are just opportunists looking for a way to arm 
themselves and to defend themselves against the Bashar al-Assad 
regime. If we can offer them an alternative way to do that 
which doesn't involve the imposition of this extreme Salafist 
brand of Islam on Syria, which is not very popular with 
ordinary Syrians--I mean, ISIS is out there punishing people 
for smoking. I mean, if you travel in this part of the world, 
everybody smokes. This is not a popular position to take.
    So people are not embracing groups like ISIS because they 
love the ideology. They are embracing it because this is the 
only way they can survive. But if we can offer them a different 
way to survive, I think you will see that a lot of these 
opportunists will leave the ranks of the al-Nusra Front, will 
leave the ranks of ISIS just as quickly as they left the ranks 
of the Taliban in the fall 2001. When we started fighting 
against Taliban, all of a sudden all this formidable support 
that the Taliban had dissolved within a matter of months 
because people decided that was no longer the winning side. 
Unfortunately, at the moment, we have not convinced anybody 
that our side is the winning side.
    Mr, Kelly. I am sure my time is up.
    Mr. Poe [presiding]. I want to thank all the gentlemen.
    I would like each member that wishes to make some brief 
closing comments. We will start with the ranking member.
    Mr. Keating. Thank you, Mr. Chairman.
    And thank all of you.
    We have just scratched the surface of all these issues, but 
it was important to do because I think it demonstrated how 
complex this is. And simplistic solutions that some people 
offer can be counterproductive.
    One of the dynamics I learned, and I don't have an answer, 
I think in hearings like this sometimes you walk away with more 
questions, which is good. But the narrative that if we are just 
there and have more of a military presence on the ground that 
suddenly Sunni Arabs are going to feel we have their back and 
they are going to all of a sudden come up in arms and join us, 
I don't think it is that simple, based on what Mr. Weiss was 
talking about. There are other alternatives besides us, like 
al-Nusra. They are there. And it is not that simple.
    I will leave one thought that we didn't get into that I 
think, with all of the complexities of what will be challenges, 
there is one thing that we can really--not us, but our allies 
in Europe can do--they can start taking passenger name records 
for their own security. They can start checking more than 30 
percent of the people at the Schengen exterior border.
    I know there are different laws and different privacy laws 
in those countries. Yet, I would hope that in the wake of the 
terrible tragedy, the second terrible tragedy in France, that 
maybe those things can be changed. And they should be things 
that change immediately. I hope that happens. At every 
opportunity, I am going to continue to press my European 
colleagues to do that. It has languished since 2013, the bill 
to deal with the passenger name records.
    So I hope they can move forward on this. They will help 
their own security. I understand and respect their sovereignty. 
But they also by making these changes help keep us more secure 
here as well.
    So I thank all of you for--this is a very good hearing and 
all of you were great contributors to do that.
    So I want to thank our witnesses and yield back.
    Mr. Poe. Thank the gentleman.
    Mr. Rohrabacher from California, closing comments.
    Mr. Rohrabacher. Yes, thank you very much. And it has been 
enlightening.
    And, Mr. Boot, let me just suggest that I think your plan 
for a Sunni Regional Government and that part of your plan is 
good. It is excellent. It is probably the only, I would say, 
real plan that I have heard thrown onto the table and it has a 
lot of validity to it. So I hope that the powers that be will 
take that seriously, and I will be talking about it myself, 
although I am not a power that be, I am just here.
    Let me ask you this. All over the Internet there is an 
interview with General Wesley Clark, former, I believe, NATO 
commander, who immediately after--a day or two after 9/11 went 
to the Pentagon. And one of his generals he worked with over 
his life visited him. And the general confided that they were 
not, this is a couple days after 9/11, they were consumed with 
the plan to move forward with a forceful regime change against 
Saddam Hussein in Iraq, not Afghanistan, but against Saddam 
Hussein.
    And then he came back about a couple weeks later, the same 
general said, ``Well, are you still moving forward on Saddam 
Hussein?'' And according to General Clark, he said, ``Well, 
actually, my friend then said, no, we are now preparing to 
forcefully remove from office the five or six governments in 
the Middle East that are deemed to be pro-Russian, including 
Libya, including Assad, including Saddam Hussein, et cetera.''
    Now, have any of you heard that even after 9/11, that our 
Government was targeting its activity on that type of--for that 
type of a mission, to eliminate, basically regime change for 
those regimes that had been close to Russia during the Cold 
War?
    Mr. Sanderson. No, Congressman.
    Mr. Rohrabacher. You haven't heard? Okay. So have you heard 
Wesley Clark's statement on this? No one has heard it.
    I would suggest that you--I am not--listen, Wesley Clark 
may be making it up. I doubt if a man of his stature would make 
this up. But I would suggest you take a look at it.
    And with that said, one last point on Assad, and that is I 
know these players. I have never met the son Assad. I did meet 
his father once a long, long time ago. And Assad in those days 
was known as the guy who protected Christians in that part of 
the world. But I know the different players. I don't know one 
player there in the Middle East that if their government was 
being confronted with an uprising that was being supported by a 
Shiite government, that that government wouldn't be just as 
brutal as what Assad has been in suppressing his regime.
    It is okay, listen, I want to say all of you gave me some 
good insights today. And I remember, as I say, Mr. Weiss gave 
me a personal, how do you say, briefing one time and it was 
excellent. All of you did an excellent job. Thank you for 
actually giving us something to think about.
    Mr. Poe. The Chair will recognize the gentleman from New 
York.
    Mr. Higgins. Dr. Gartenstein-Ross, you had indicated in 
your opening statement that there is a need to challenge the 
ISIS narrative of strength, and that ISIS has vulnerabilities 
and we have to make those vulnerabilities work against them. Do 
you want to elaborate?
    Mr. Gartenstein-Ross. Yes. So their key vulnerability, the 
one that actually holds the potential to completely reverse the 
ISIS' brand, is the territoriality aspect of their mission. 
When they declared the caliphate, one of the things that they 
had to do was maintain a legitimate caliphate. If their 
caliphate reaches the point where it is nonviable, then they 
have a lot of explaining to do to their constituents.
    A second thing is they have a narrative that has rested so 
much on strength. That is why they don't have a problem burning 
men alive, drowning them in swimming pools, and putting it on a 
video, beheading people on video, talking selfies with severed 
heads. It is a narrative of strength. It works while they are 
winning.
    We saw a complete brand reversible previously with al-Qaeda 
in Iraq, which was very similar--which ISIS was born out of--
very similar to ISIS. Back in the 2005 to 2007 period, they 
were one of the strongest players. They were the dominant force 
in Anbar province. They committed massive atrocities. And then 
when they started to lose, suddenly the narrative shifted from 
one of strength to one of them having overplayed their hands. 
Al-Qaeda, in fact, views AQI's loss as devastating to their 
organization. They have been trying to rebrand themselves ever 
since.
    In terms of their narrative of strength, they have at times 
exaggerated their victories in ways that they have gotten our 
media to echo. They claimed falsely that they controlled the 
city of Derna in Libya, something we now know definitively was 
not true, but CNN, BBC, and other major outlets reported that 
they controlled Derna when they actually didn't. They have 
experienced four major reversals in Africa, the most important 
of which is the Algerians basically wiping out the entirety of 
the ISIS branch in their country. They also got kicked out of 
Derna by the Derna Mujahideen Shura Council. They also had 
their defector organization from a militant organization called 
Al-Mourabitoun experience significant losses at the hands of 
the al-Qaeda leader Mokhtar Belmokhtar, who went after them 
ruthlessly. And they have experienced significant losses at the 
hands of Shabaab's internal security apparatus as they have 
tried to establish a presence there.
    The point being, they have a lot of losses that people just 
aren't aware of. And I think that one of the key things our own 
information operation should do is focus on this narrative of 
strength.
    Now, right now doing so will not be particularly helpful, 
right? They just executed the Paris attacks, the Sinai attack. 
They are in a position of strength right now, regardless of 
their loss of Sinjar and other territorial losses. But there 
have been ebbs and flows for ISIS. And right now they are at a 
period that is quite good for them. It is not necessarily going 
to last, and we need to focus on shattering their narrative of 
strength.
    Mr. Poe. I do want to thank you once again. Fascinating, 
depressing. And I think it is incumbent upon us, Members of 
Congress, work with the administration, that we look at the big 
picture of what is taking place with ISIS, the growth, and then 
have a response, a military response partially, a political 
response, and important also that we understand the 
consequences of every act and failure to act. What is the long-
term consequence of what we do as a Nation regarding ISIS, how 
it affects not just us but the whole chaos in the Middle East. 
I think that is a big job ahead of us.
    And I appreciate, personally, and the committee appreciates 
your insight specifically about what is really taking place in 
the Middle East.
    Thank you very much. The subcommittee is adjourned.
    [Whereupon, at 3:35 p.m., the subcommittee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
